HHS/OIG-Audit--"Review of the Accounts Receivable Balances for the HospitalInsurance and Supplemental Medical Insurance Trust Funds at September 30, 1991,(A-01-91-00525)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Accounts Receivable Balances for the Hospital Insurance and Supplementary Medical Insurance Trust
Funds at September 30, 1991," (A-01-91-00525)
June 24, 1993
Complete
Text of Report is available in PDF format (3.83 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Health Care Financing Administration (HCFA) and Medicare contractors had not
maintained fully integrated accounts receivable systems containing attributes such as full accrual accounting, aging of
accounts, proper cut-off procedures, and adequate audit trails. As a result, HCFA's accounts receivable balances for the
Medicare trust funds at September 30, 1991 were underreported. The HCFA estimated that there was about $1.23 billion in
Medicare secondary payer overpayments which were not reported as accounts receivable balances at yearend. We recommended
improvements to HCFA's financial management systems and related accounting and administrative controls.